     U.S. ELECTION ASSISTANCE COMMISSION 

            OFFICE OF INSPECTOR GENERAL



                FINAL REPORT 



   ADMINISTRATION OF GRANT FUNDS RECEIVED 

UNDER THE HELP AMERICA VOTE COLLEGE PROGRAM 

               BY PROJECT VOTE 





                 AUDIT REPORT NO. 

                  E-HP-SP-05-10




                  NOVEMBER 2010
U.S. ELECTION ASSISTANCE COMMISSION

OFFICE OF INSPECTOR GENERAL

                                           NOVEMBER 2010

                                           AUDIT REPORT
                                           ADMINISTRATION OF GRANT FUNDS RECEIVED UNDER THE HELP
                                           AMERICA VOTE COLLEGE PROGRAM BY PROJECT VOTE
HIGHLIGHTS                                 RESULTS IN BRIEF
AUDIT REPORT NO.
E-HP-SP-05-10                              The Help America Vote College Program is a discretionary grant
                                           program run by the EAC to encourage college students to serve
SUBJECT                                    as poll workers. Grants are distributed to non-profit
                                           organizations and institutions of higher learning to recruit and
We audited Project Vote’s use of           train college students to serve as poll workers.
$33,750 provided through two grants
issued in 2006 by the U.S. Election        In 2006, Project Vote was awarded two grants, $16,875 each, to
Assistance Commission (EAC) under          develop and implement recruitment and training programs in
the Help America Vote College              Michigan and Delaware. According to information provided by
Program (College Program).                 Project Vote, they contracted with the Association of Community
                                           Organizations for Reform Now (ACORN) to conduct the grant
Our audit objectives were to determine
                                           work. The final reports issued regarding these grant programs
whether the costs claimed under the
                                           states that Project Vote used the grant funding to recruit 105 and
grants were allowable, supported, and
                                           75 students, respectively, in Delaware and Michigan, and that
in accordance with applicable laws,
                                           105 and 40 students, respectively, were trained in Delaware and
regulations, guidelines, and terms and
                                           Michigan to serve as poll workers.
conditions of the grants.
RECOMMENDATIONS AND                        Upon making repeated requests for cost and accounting records,
COMMISSION RESPONSE                        we were informed by Project Vote in April 2010 that Project
                                           Vote could not locate any cost or accounting records to support
We found that Project Vote did not         its or ACORN’s expenditures under the grants. What is more,
possess cost records sufficient to         Project Vote could not demonstrate that a contract existed
support expenditures related to the two    between itself and ACORN to perform the grant services.
grants issued to Project Vote in 2006.
We recommended that the EAC work           EAC requested that payment be made to Project Vote under this
with Project Vote to obtain cost records   grant in August 2009. Based upon the records provided by EAC,
and if such records can not be obtained    it had no cost records or expenditure details at the time of
to recover the $33,750 in grant funding    payment.
provided to Project Vote.
                                           We found that the grant costs were unsupported and questioned
In its response to the draft report        all $33,750. We recommended that the Commission (1) work
(Appendix 2), the EAC indicated that it    with Project Vote to identify any supporting costs records and
generally concurred with the results of    make a determination as to whether any costs related to the grant
the review and the recommendations.        were supported, (2) conduct a thorough search to determine if
The response indicated that the EAC        EAC has any additional records from Project Vote that support its
would work with Project Vote to            costs, (3) recover any unsupported or unallowable costs from
recover any unsupported or                 Project Vote, and (4) follow policies and procedures established
unallowable costs.                         in the grant award regarding obtaining and retaining required
                                           reporting documents.
                           U.S. ELECTION ASSISTANCE COMMISSION

                                   OFFICE OF INSPECTOR GENERAL

                                  1201 New York Ave. NW - Suite 300 

                                        Washington, DC 20005


November 8, 2010

Memorandum

To:        The Commission

From:      Curtis Crider
           Inspector General

Subject: 	 Final Audit Report – “Administration Of Grant Funds Received Under
           The Help America Vote College Program By Project Vote”

        This memorandum transmits the U.S. Election Assistance Commission Office of
Inspector General’s final report on its audit of Project Vote’s use of funding distributed
by the U.S. Election Assistance Commission (EAC) under the Help America Vote
College Program (College Program). The Office of Inspector General was requested by
the U.S. Election Assistance Commission to audit the two Help America Vote College
Program grants issued in 2006 to Project Vote of Delaware and Project Vote of
Michigan. Project Vote of Delaware received $16,875 and Project Vote of Michigan
received $16,875. The objective of the audit was to determine whether the costs claimed
under the grants were allowable, supported, and in accordance with applicable laws,
regulations, guidelines, and the terms and conditions of the grants.

        We discovered that Project Vote did not possess cost records to support its
expenditures under the two grants issued to Project Vote (Michigan and Delaware) in
2006. As a result, the OIG is questioning the entire $33,750 provided to Project Vote
under the grants. In a letter dated June 16, 2010, (Appendix 3) Project Vote maintains
that the work outlined in the grants was successfully completed. The letter further
indicated that Project Vote no longer has any working relationship with ACORN. A
copy of the draft report was provided to Project Vote for its review and comment.
Project Vote did not respond to our request for comments.

       In its response to the draft report (Appendix 2), the EAC indicated that it
generally concurred with the results of the review and the recommendations. The
response indicated that the EAC would work with Project Vote to recover any
unsupported or unallowable costs.

       We would appreciate being kept informed of the actions taken on our
recommendations as we will track the status of their implementation. Please respond in
writing to the finding and recommendation included in this report by January 4, 2011.
Your response should include information on actions taken or planned, targeted
completion dates, and titles of officials responsible for implementation.

       The legislation, as amended, creating the Office of Inspector General (5
U.S.C. § App.3) requires semiannual reporting to Congress on all audit reports
issued, actions taken to implement audit recommendations, and recommendations
that have not been implemented.

      If you have any questions regarding this report, please call me at (202) 566-3125.
We appreciate your prompt attention to this matter.



cc: Executive Director
                           TABLE OF CONTENTS 


Introduction                                     1

Objectives, Scope, and Methodology               2

Findings and Recommendations                     3

Appendix 1 – Monetary Impact                     7

Appendix 2- Commission Response                  8

Appendix 3- Letter from Project Vote             9
                                 INTRODUCTION 


The U.S. Election Assistance Commission (EAC) was created and empowered by the
Help America Vote Act of 2002 (HAVA) to assist states with the improving the process
of conducting elections for federal office. HAVA also provides funds to help encourage
college students to be trained and serve as poll workers on election day.

The Help America Vote College Program (College Program) permits grants to
institutions of higher learning and nonprofit organizations to recruit and train college
students to serve as poll workers on election day. Grants under this program were first
distributed in 2004. The EAC has subsequently distributed grants in 2006, 2008, 2009
and 2010.

Under the College Program, the EAC awarded $33,750 to Project Vote in August 2006 in
the form of two grants: one to Project Vote, Delaware, in the amount of $16,875; and
one to Project Vote, Michigan, in the amount of $16,875. Project Vote submitted grant
applications or proposals for both grants in June 2006. Those applications included
budgets for the proposed projects.

Project Vote’s final report was dated May 2007 for each grant project. According to
those reports, interim reports were also submitted and the final reports covered the period
from October 1, 2006 through December 31, 2006. As a part of the final reports, Project
Vote provided a narrative of its expenditures. The narrative merely listed the categories
or classes of things on which grant funds were spent, including salaries and wages for
several employees, refreshments, supplies associated with the production of flyers,
reminder phone calls, and travel expenses. The reports did not identify what amounts of
money were spent on each of these activities.

The final reports also provided information regarding the results of the grant projects
undertaken by Project Vote, Michigan, and Project Vote, Delaware. According to the
final reports, Project Vote, Michigan, recruited 75 students and 40 of those students were
ultimately trained as poll workers. Project Vote reported that they were asked to suspend
referrals to the Department when the Department had reached the needed number of
qualified poll workers. Project Vote, Delaware recruited and trained 80 students.
Students were recruited through two meetings: one on the University of Delaware
campus and one on the Delaware Technical and Community College Campus. Training
sessions were held on both campuses. In addition, 25 students contacted Project Vote
regarding their interest and were directed to training sessions conducted by the New
Castle Department of Elections at other locations.

The EAC distributed the $33,750 in grant funds to Project Vote in August 2009. The
information provided with regard to this payment was a memorandum to the General
Services Administration requesting disbursement of funds. That memorandum stated that
EAC was awaiting final reports prior to disbursing payment to Project Vote. EAC did
receive the final reports.


                                             1

               OBJECTIVES, SCOPE, AND METHODOLOGY 


The objective of our audit was to determine whether the costs claimed by Project Vote
under the College Program grants were allowable, supported, and made in accordance
with applicable laws, regulations, guidelines, and terms and conditions of the grants.

We examined records related to the College Program grants issued to Project Vote that were
provided by the EAC as well as Project Vote. We also examined standards for reporting as
contained in the terms and conditions of the grant, the grant award letters, HAVA, and applicable
Office of Management and Budget circulars.

We performed our audit in accordance with generally accepted government auditing standards.




                                                2

                  FINDINGS AND RECOMMENDATIONS 


At the beginning of this audit, the OIG requested access to records related to the grants
distributed to and administered by Project Vote. These requests were made of Project
Vote officials as well as the EAC. The EAC provided documents to support the grant
solicitation, Project Vote’s applications, as well as the selection and award of grants to
Project Vote. In addition, EAC provided documentation for the request for payment or
disbursement of funds to Project Vote. The EAC also provided copies of the final reports
submitted by Project Vote. On January 21, 2010, the EAC confirmed that they did not
have any additional records related to the Project Vote grants.

Project Vote provided copies of the final reports submitted for both grants. In addition,
Project Vote provided a spreadsheet with the names of students as well as contact and
tracking information for persons involved with the Delaware effort. Last, Project Vote
provided an activity report for the Michigan grant project. By email dated April 20,
2010, Project Vote officials stated that they did not have any additional records.

According to information provided by Project Vote officials during a conference call held
on March 5, 2010, Project Vote contracted with ACORN to conduct the work under these
grant agreements. Project Vote officials stated that they could not produce contract
documents supporting this working relationship and that no funds had been disbursed to
ACORN due to the lack of contract documentation. In its April 20, 2010 email, Project
Vote officials stated that Project Vote requested documents from ACORN relative to
their work on these projects and that ACORN had not produced any records.

The award letters issued to Project Vote set forth the record keeping and audit
requirements on grants made under the Help America Vote College Program. The
conditions specifically required compliance with Office of Management and Budget
(OMB) Circular A-122 and referenced the provisions of HAVA regarding recordkeeping
by recipients of HAVA funding. In addition, the reporting schedule provided to Project
Vote with the award letters for the grants required the submission of a Cash Transactions
Report (SF 272) on October 15, 2006, and a Financial Status Report (SF 269) on March
31, 2007.




                                             3

                   FY 2006 Help America Vote College Program Grant 

                                 Reporting Schedule 



    Due Date                      Reporting Period                         Report


October 15, 2006     August 7, 2006 – September 30, 2006            SF 272 Federal Cash
                                                                    Transaction Report


October 30, 2005     August 7, 2006 – September 30, 2006            Performance Report


March 31, 2007       October 1, 2006 – December 31, 2006            SF 269 Financial
(Final Report)       (unless the period of the grant is extended)   Status Report and
                                                                    Performance Report

The grant award letters to Project Vote, Michigan and Project Vote, Delaware were dated
August 4, 2006.

Circular A-122 requires that costs are “adequately documented” in order to be considered
allowable. See OMB Circular A-122, Cost Principles for Non-Profit Organizations (2
C.F.R. Part 230). The circular also specifies the types of records that are needed to
support certain charges. For example, time sheets or certifications are required to
support salary costs charged to a grant. Section 902 of HAVA requires that grant
recipients maintain records consistent with sound accounting principles.

       “(a) Recordkeeping Requirement. – Each recipient of a grant or other
       payment under this Act shall keep such records with respect to the
       payment as are consistent with sound accounting principles, including
       records which fully disclose the amount and disposition by such recipient
       of funds, the total cost of the project or undertaking for which such funds
       are used, and the amount of that portion of the cost of the project or
       undertaking supplied by other sources, and such other records as will
       facilitate an effective audit.”

42 U.S.C. § 15542 (a).

After several requests to both the EAC and to Project Vote, neither could provide records
of actual expenditures by Project Vote on this grant. Project Vote could not produce any
cost or accounting records related to its expenditure of $33,750 in Federal grant funds.
Furthermore, neither EAC nor Project Vote could produce interim or final financial
reports that were required to be submitted by Project Vote pursuant to the grant
agreement. The only information provided relative to costs were budget estimates
included in Project Vote’s applications for the two grants. The two final reports


                                             4

submitted by Project Vote included a list of the types of charges funded by the grants.
The reports did not include amounts for each of the categories and did not provide any
supporting documentation for salaries or any other charges. The records submitted by
both the EAC and Project Vote did not include any SF 272 Federal Cash Transactions
Reports or SF 269 Financial Status Reports. The records provided by Project Vote and
EAC do not support costs reportedly incurred by Project Vote in conducting the two grant
programs.



FINDING 1 – PROJECT VOTE’S COSTS WERE UNSUPPORTED

Project Vote’s failure to maintain records in accordance with grant conditions, HAVA
requirements, and applicable OMB circulars resulted in its inability to produce records to
support costs reportedly incurred by Project Vote in conducting the grant programs.
EAC, likewise, did not produce financial reports required to be submitted by Project Vote
as a part of its grant agreement with EAC. As a result of the absence of cost records, all
$33,750 in costs associated with grants made to Project Vote in 2006 are currently
unsupported and are, therefore, questioned.

RECOMMENDATIONS

We recommend that the EAC:

   1.	 Determine whether any costs associated with this grant are supported and
       allowable. EAC should work with Project Vote to determine whether Project
       Vote has any records to support its costs under the grants.
   2.	 Conduct a thorough search of its paper and electronic files to determine if the
       EAC has any additional documentation that would support Project Vote’s costs.
   3.	 Recover all unsupported and unallowable costs paid to Project Vote under the two
       grants issued in 2006.
   4.	 Follow policy and procedure established in the grant awards in obtaining and
       maintaining required reporting documents.

PROJECT VOTE COMMENTS

Project Vote in a letter to the Office of Inspector General dated June 9, 2010, (Appendix
3) provided additional information concerning the two grants issued to Project Vote in
2006. In its letter, Project Vote indicated that it had provided all of the documents that
were in its possession to the Office of Inspector General. Project Vote also felt that the
documents that it had submitted showed that the projects were successfully completed.
Project Vote also indicated that it had attempted to obtain records from its sub-contractor.
The letter further stated that Project Vote was no longer affiliated with ACORN.




                                             5

U.S. ELECTION ASSISTANCE COMMISSION COMMENTS

In its response to the draft report (Appendix 2), the EAC generally concurred with the
findings and recommendations. The response indicated that the EAC would work with
Project Vote to recover any unsupported or unallowable costs.




                                           6

                                             APPENDIX 1 


         MONETARY IMPACT

                                Questioned
             Description          Costs

Project Vote Delaware             $ 16,875

Project Vote Michigan              $16,875



Totals                             $33,750




                           7

                                                                            Appendix 2




                     EAC RESPONSE TO THE DRAFT AUDIT:
                     OIG Performance Audit Report on the Administration of
                     Payments Received Under the Help America Vote Act
                     College Program by Project Vote


October 29, 2010 


MEMORANDUM 


To:           Curtis Crider
              Inspector General

From:         Thomas Wilkey
              Executive Director

Subject:     Draft Audit Report – “Administration of Grant Funds Received
             Under the Help America Vote Act College Program by Project
             Vote”.

Thank you for this opportunity to review and respond to the draft audit report for
Project Vote.

The Election Assistance Commission (EAC) generally concurs with the results of
the review and recommendations. Project Vote maintains that the work outlined
in the grants received from EAC was successfully completed. However, Project
Vote was unable to locate any cost or accounting records to support its or
ACORN’s expenditures under the grant awards. EAC will work with Project Vote
to recover any unsupported or unallowable costs from Project Vote.




                                         8
                                                                                        APPENDIX 3 





Curtis Crider                                                            Jtme 9, 2010
Inspector General
United States Ekctlons Assistance Commission
Office of the Inspector General
1225 New York Avenue, NW Suite 1100
Washington DC 20005

Electronically delivered

Re: 	   Project VoteNoting for America, Inc.
        Applications Nos. EAC 060035 and 060036

Dear Mr. Crider:

         Project Vote informed you that it had provided all the documents you requested that was
in its possession on April 20, 2007. Realizing that we had not given you a summary ofthose
documents I wanted to follow up with this letter before you completed your investigation.

        Your audit was initiated because Congress requested the EAC audit ACORN and
ACORN affiliated organizations. As of July, 2008 Project Vote is no longer "affiliated" with
ACORN under any definition of the word. While Project Vote has always been a separate,
independent corporation and has had a separate, independent Board, we understand that because
Project Vote has worked closely with ACORN on voter participation matters and shared a
common employee until July 2008 that the EAC felt compelled to initiate the audit. I would like
to further state that Proj ect Vote no longer has any working relationships with ACORN.

         The audit relates to the two above captioned grants provided to Project Vote in 2006 to
facilitate college stl~deilt participation as poll workers in elections held in November 2006. The
grants were issued 1:0 Project Vote for work in Michigan and Delaware. Project Vote has
provided you wi1th the only four documents it has in its possession that are related to the grants: a
spread sheet report of the students participating in the program in Delaware, a May 2007 final
report ofthe Delaware ~ project, a Saginaw Michigan Activity Report and a May 2007 final report
of the Michigan Project. The activity report from Saginaw states that the program was such a
success that the election officials called and asked that outreach be stopped. In Delaware 125
students were refened to training or trained under the project and 16 were selected as poll
workers. As you appeared to agree during our conversation, this shows that the projects funded
by the grants were completed successfully. Despite our requests to the sub-contractor Project
Vote used to do the outreach and conduct the training, we did not receive any contemporaneous
records of time and resources expended pursuant to the projects. If, because of this, you feel the
documentation is not adequate to support the expenditure, Project Vote is prepared to return a
proportion or all ofthe funds provided as you see fit.



                           737 1/2 8th Street SE       • Washington, DC 20003
                                   1-800-546-8683 • www.projectvote.org

                                                   9
                                                             APPENDIX 3 





    Please feel free to call me if you have any questions.

    Sincerely,

/-- -   v--   MiL·
    Brian Mellor 

    Senior Counsel 

    Project VoteNoting for America, Inc. 

    202-553 4317 

    bmellor@projectvote.org 





                                                    10 

                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1201 New York Ave. NW - Suite 300
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: 	U.S. Election Assistance Commission
Waste and Abuse                 Office of Inspector General
Involving the U.S.              1201 New York Ave. NW - Suite 300
Election Assistance             Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
